HHS/OIG-Audit--"Review of Pension Costs Claimed for Medicare Reimbursement by Travelers Insurance Company, (A-07-98-02533)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Travelers
Insurance Company," (A-07-98-02533)
December 29, 1998
Complete Text of Report is available in PDF format
(682 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Pension Costs Claimed
for Medicare Reimbursement by Travelers Insurance Company. Our review showed
that Travelers claimed $854,214 in pension costs that were not allowable. The
over claim occurred primarily because Travelers incorrectly assigned contributions
towards funding the qualified plan pension costs for the Medicare segment. We
recommend Travelers revise its claim to eliminate the unallowable pension costs.
Travelers agreed with our findings and recommendation.